No. 20-843
IN THE

Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ROBERT NASH, BRANDON KOCH,
Petitioners,
v.
KEVIN P. BRUEN, in His official capacity as Superintendent of the New York State
Police, RICHARD J. MCNALLY, JR., in His official capacity as Justice of the New York
Supreme Court, Third Judicial District, and Licensing Officer for Rensselaer County,
Respondents.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

CERTIFICATE OF SERVICE
I, Mark D. Selwyn, a member of the bar of this Court, hereby certify that, on this
21st day of September, 2021, all parties required to be served have been served copies
of the Brief for Amici Curiae Professors of History and Law in Support of Respondents
in this matter by overnight courier to the addresses below.
Counsel of Record for Petitioners
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel of Record for Respondents
BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
barbara.underwood@ag.ny.gov

MARK D. SELWYN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
(650) 858-6000
mark.selwyn@wilmerhale.com

